U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Assassination Archives & Research Center v. Central Intelligence Agency
S.Ct. No. 19-1273

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on April 28, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on August 17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 16, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

19-1273
ASSASSINATION ARCHIVES & RESEARCH
CENTER
CIA

DANIEL S. ALCORN
ATTORNEY AT LAW
1335 BALLANTRAE LANE
MCLEAN, VA 22101
703-442-0704
DALCORN@RCN.COM

